No. 20-8047
IN THE SUPREME COURT OF THE UNITED STATES
CORNELIUS R. CAPLE, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 16th day of July, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 16, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

20-8047
CAPLE, CORNELIUS R.
USA

M. CAROLINE MCCRAE
FEDERAL PUBLIC DEFENDER
450 S. AUSTRALIAN AVE.
STE. 500
WEST PALM BEACH, FL 33401
561-833-6288

